U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 29, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Winston-Salem Industries for the Blind v. PDS Consultants, Inc., No. 19-329
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 9,
2019. The government's response is now due, after one extension, on November 12, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including December 9, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0329
WINSTON-SALEM INDUSTRIES FOR THE BLIND
PDS CONSULTANTS, INC., ET AL.

JESSICA C. ABRAHAMS
DRINKER BIDDLE & REATH LLP
1500 K STREET, NW
WASHINGTON, DC 20005
202-230-5371
ROBERT REEVES ANDERSON
ARNOLD & PORTER KAYE SCHOLER LLP
370 SEVENTEENTH STREET
SUITE 4400
DENVER, CO 80202-1370
303-863-2325
REEVES.ANDERSON@ARNOLDPORTER.COM
THOMAS M. BONDY
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005
ANGELA I. CARMAON
POST OFFICE BOX 2511
WINSTON-SALEM, NC 27102
336-747-7404
ANGELAC@CITYOFWS.ORG
LAWRENCE S. EBNER
CAPITAL APPELLATE ADVOCACY PLLC
1701 PENNSYLVANIA AVE, NW
SUITE 200
WASHINGTON, DC 20006
202-729-6337
LAWRENCE.EBNER@CAPITALAPPELLATE. C
OM

STEPHANIE G. HERRERA
MUNGER, TOLLES & OLSON LLP
560 MISSION STREET
TWENTY-SEVENTH FLOOR
SAN FRANCISCO, CA 94105-3089
415-512-4063
STEPHANIE.HERRERA@MTO.COM
TRACYE WSINFREY HOWARD
WILEY REIN LLP
1776 K STREET NW
WASHINGTON, DC 20006
202-719-7000
TWHOWARD@WILEYREIN.COM
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K STREET, NW
WASHINGTON, DC 20005
202-736-8000
CPHILLIPS@SIDLEY.COM
DONALD B. \TERRILLI
MUNGER, TOLLES & OLSON LLP
1155 F. STGREET,NW
7TH FLOOR
WASHINGTON, DC 20004
202-220-1100
DONALD .VERRILLI@MTO .COM
WESLEY E. WEEKS
WTLEY REIN LLP
1776 K STREET, NW
WASHINGTON, DC 20006
202-719-7569
WWEEKS@WILEYREIN.COM

